No. 20In the

Supreme Court of the United States

MICHAEL SHOCK,
Petitioner,
v.
STATE OF ARKANSAS,
Respondent.

On Petition for a Writ of Certiorari to
the A rkansas Court of A ppeals

PETITION FOR A WRIT OF CERTIORARI

Jeffrey M. Rosenzweig
Counsel of Record
300 Spring Street, Suite 310
Little Rock, AR 72201
(501) 372-5247
jrosenzweig@att.net
Attorney for Petitioner

298471

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Are significant discovery and Brady violations by the
prosecuting attorney, necessitating the grant of a mistrial,
sufficient to invoke the double jeopardy protections against
“goading” as set forth in Oregon v. Kennedy?

ii
RELATED CASES
State v. Shock, 12CR-17-166, Circuit Court of Cleburne
County, Arkansas. Judgment entered June 24, 2019.
Shock v. State, CR-19-532, A rkansas Court of
Appeals. Judgment entered March 11, 2020.
Shock v. State, CR-19-532, Arkansas Supreme Court.
Judgment entered June 18, 2020.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . v
CITATION TO OPINION BELOW  . . . . . . . . . . . . . . . . 1
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
REASONS FOR GRANTING THE WRIT
AND ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
SIGNIFICANT DISCOVERY AND BRADY
VIOLATIONS BY THE PROSECUTING
AT T ORNEY, NECES SI TATING T HE
GRANT OF A MISTRIAL, ARE SUFFICIENT
TO INVOKE THE DOUBLE JEOPARDY
PROTECTIONS CONCERNING “GOADING”
UNDER OREGON V. KENNEDY . . . . . . . . . . . . . . . 4
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

iv
TABLE OF APPENDICES
Page
APPENDIX A — ORDER DENYING REVIEW
OF THE ARKANSAS SUPREME COURT,
DATED JUNE 18, 2020 . . . . . . . . . . . . . . . . . . . . . . . 1a
A PPEN DI X B — OR DER DEN Y I NG
REHEARING OF THE ARKANSAS COURT
OF APPEALS, DATED APRIL 15, 2020 . . . . . . . . 2a
APPENDIX C — OPINION OF THE ARKANSAS
COURT OF APPEALS, DIVISION THREE,
DATED MARCH 11, 2020 . . . . . . . . . . . . . . . . . . . . . 3a
APPENDIX D — EXCERPT OF TRANSCRIPT
OF THE CIRCUIT COURT OF CLEBURNE
COUNTY, ARKANSAS, FOURTH DIVISION,
DATED APRIL 16, 2019 . . . . . . . . . . . . . . . . . . . . . . 11a

v
TABLE OF CITED AUTHORITIES
Page
Constitutional Provisions
Fifth Amendment, United States Constitution  . . . . . . . 1
Fourteenth Amendment, United States Constitution . . 1
Statutes
28 U.S.C. § 1257  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Cases
Amado v. Gonzalez,
758 F.3d 1119 (9th Cir. 2014)  . . . . . . . . . . . . . . . . . . . . 8
Brady v. Maryland,
373 U.S. 83, 83 S. Ct. 1194 (1963)  . . . . . . . . . . 3, 4, 6, 8
Oregon v. Kennedy,
456 U.S. 667, 102 S. Ct. 2083 (1982)  . . . . . . . . 4, 7, 8, 9
Shock v. State,
2020 Ark. App. 165, 596 S.W.3d 580 . . . . . . . . . . . .1, 5
State v. Williams,
268 Kan. 1, 988 P.2d 722 (1999) . . . . . . . . . . . . . . . . . . 7
Strickler v. Greene,
527 U.S. 263, 119 S. Ct. 1936 (1999)  . . . . . . . . . . . . . . 8

vi
Cited Authorities
Page
United States v. Agurs,
427 U.S. 97, 96 S. Ct. 2392 (1976)  . . . . . . . . . . . . . .  7-8
United States v. Bundy,
968 F.3d 1019 (9th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 8
United States v. Chapman,
524 F.3d 1073 (9th Cir. 2008) . . . . . . . . . . . . . . . . . . . . 9
Wilson v. Sellers,
138 S. Ct. 1188 (2018)  . . . . . . . . . . . . . . . . . . . . . . . . . . 7

1
CITATION TO OPINION BELOW
The decision of the Arkansas Court of Appeals, the
intermediate state appellate court, is reported as Shock
v. State, 2020 Ark. App. 165, 596 S.W.3d 580. A copy of
the opinion appears in the Appendix. (3a) The Arkansas
Supreme Court denied the petition for review without a
plenary opinion on June 18, 2020. The denial appears in
the Appendix. (1a)
JURISDICTIONAL STATEMENT
This Court’s jurisdiction is invoked pursuant to 28
U.S.C. § 1257. The denial of review by the Arkansas
Supreme Court was issued on June 18, 2020. This petition,
being filed within the 150 days set forth in this Court’s
order of March 19, 2020, is timely.
CONSTITUTIONAL PROVISIONS INVOLVED
Fifth Amendment, United States Constitution
... nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb;
Fourteenth Amendment, United States Constitution
...nor shall any State deprive any person of life, liberty,
or property, without due process of law...
STATEMENT OF THE CASE
Michael Shock was charged in the Circuit Court of
Cleburne County, Arkansas, with the rape of his five-

2
year-old granddaughter. His defense attorneys filed a
discovery motion requesting all information to which
he was entitled under the Arkansas Rules of Criminal
Procedure, relevant case law and the state and United
States Constitutions. (R. 29). He later filed several motions
seeking additional information, including a motion for a
bill of particulars seeking information as to the “time,
place, manner, and means of the alleged offense…” (R.59)
The State’s response was that the information had been
provided in the file. (R. 97) All requests for additional
discovery were denied by the circuit court based upon the
prosecutor’s representations that the information was in
the file or otherwise available. (R. 58, 396-97, 436, 439-40,
461-62, 466-67, 579-94, 621-26). Shock’s defense was that
he had not committed the offense — and could not have,
because he was never alone with the child. (R. 580-581,
587) The discovery materials recorded that the child had
said she was alone with her grandfather at the time of the
supposed incident.
During discovery discussions, the defense was
advised by the prosecutor that follow up interviews were
conducted with the accuser and her mother, who was
Shock’s daughter-in-law. At two pretrial hearings, Shock
asked for additional details about these conversations,
including whether additional information regarding the
allegations was disclosed in an attempt to get clarification
on who else was present during the relevant time. (R.
408, 412-414, 440-441)) In each response to Shock’s
requests, the prosecutor asserted that she was aware
of her responsibilities and that the extent of the State’s
knowledge about the allegations was included in the file.
(R. 449)

3
Both during the prosecution’s opening statement and
in examination of its first witness, it became apparent that
relevant exculpatory information had not been provided
to Shock. (R. 814-816, 865) In particular, the prosecutor
referred in her opening statement to an examination which
had not been disclosed to the defense. (R 814-816) The
prosecution’s first witness, Samantha Shock, the mother
of the accuser, then testified that the accuser had told her
that there were several persons in the home during the
time the incident purportedly occurred. This revelation
corroborated Shock’s defense. (R. 865). The prosecutor
claimed she had no knowledge of this, although Ms. Shock
testified she had told the prosecutor. The motions for
mistrial on both grounds were denied. (R 866, 888)
It was only then disclosed that the prosecutor herself
was representing Samantha Shock in civil litigation
against another member of Shock’s family and had been
contacted by Samantha Shock in the prosecutor’s private
practice capacity with regard to the case on trial. Mistrial
was denied on those issues as well. (R 954-955) (Arkansas
permits certain classes prosecuting attorneys to have
private law practices.)
The next day, the prosecutor revealed the existence of
additional information to which Shock was clearly entitled
under Brady v. Maryland, 373 U.S. 83, 83 S.Ct. 1194
(1963). Although the defense had received two pages of
medical records, the new revelation was that there were
three additional pages discussing the details of a sexual
medical examination, that a video of examination existed,
and that an sexually transmitted disease examination
was performed. Shock moved for a mistrial, arguing that
information provided by the State was exculpatory and

4
was required to be turned over by the State. (R. 980-982)
The prosecutor acceded to the mistrial motion.
Shock then moved to dismiss the prosecution on
double jeopardy grounds. In the hearing on dismissal, it
was established that the entire medical record was in the
possession of the State’s lead detective some four months
before the trial and before all of Shock’s discovery requests
were made. The circuit court denied Shock’s motion. (R.
1150) Shock then took an interlocutory appeal on double
jeopardy grounds. The intermediate Arkansas Court of
Appeals denied relief, as did the Arkansas Supreme Court.
Shock now seeks certiorari review in this Court.
REASONS FOR GRANTING
THE WRIT AND ARGUMENT
S I G N I F I C A N T D I S C OV E RY A N D B R A DY
VIOLATIONS BY THE PROSECUTING ATTORNEY
NECESSITATING THE GRANT OF A MISTRIAL ARE
SUFFICIENT TO INVOKE THE DOUBLE JEOPARDY
PROTECTIONS CONCERNING “GOADING” UNDER
OREGON V. KENNEDY.
This case presents this Court an opportunity to clarify
what sorts of prosecutorial misconduct may constitute
grounds to invoke double jeopardy under the Fifth and
Fourteenth Amendments when a mistrial is declared as
a result of the misconduct.
In Oregon v. Kennedy, 456 U.S. 667, 676, 102 S.Ct.
2083, 2089 (1982), this Court observed:
Only where the governmental conduct in
question is intended to “goad” the defendant

5
into moving for a mistrial may a defendant raise
the bar of double jeopardy to a second trial
after having succeeded in aborting the first on
his own motion.
Arkansas has interpreted this decision to preclude
double jeopardy dismissal even when the defense, during
trial, has ascertained intentional discovery violations for
which the only logical resolution had to be a mistrial. That
interpretation improperly restricts “goading” to in-trial
misconduct and declines to penalize the prosecution for
intentional misconduct occurring through the pretrial
discovery process. That cannot be the law, and if it now
is, should not be.
In this case, Shock v. State, 2020 Ark. App. 165, 5-6,
596 S.W.3d 580, 584, a panel of the intermediate Arkansas
Court of Appeals wrote:
Appellant first argues that the circuit court
erred in denying his motion to dismiss because
the State’s repeated discovery and Brady
violations were intended to provoke a mistrial.
He points to his repeated attempts to obtain
a mistrial for the State’s failure to disclose
before trial (1) the existence of a sexual-assault
medical exam of the victim; (2) that the victim
and appellant had been alone together; and
(3) the prosecutor’s previous representation
of Ms. Shock in a civil matter. The circuit
court reviewed the issues and found that the
prosecutor had not intentionally attempted to
“goad” appellant into requesting a mistrial.

6
We cannot say that the circuit court’s finding
is clearly erroneous, and on de novo review,
we affirm its denial of appellant’s motion to
dismiss. Appellant moved multiple times for
mistrial before it was ultimately granted by
the court. The State responded to each motion,
refuting appellant’s arguments and denying
that a mistrial was warranted, suggesting
that the State specifically did not want the
case to end in a mistrial. It was not until the
prosecutor questioned the SANE nurse during
a break in Ms. Shock’s testimony that the State
discovered multiple pages from the medical
examination had not been provided to appellant
during discovery. At appellant’s renewal of
his motion for mistrial, the prosecutor agreed
that it should be granted although it made her
“physically ill.” We cannot say the circuit court’s
finding that the prosecutor did not intentionally
goad appellant into moving for a mistrial is
clearly erroneous.
Further, although the State does not concede
that the failure to provide the evidence
amounted to a Brady violation, our supreme
court has held that the law is well settled that
the remedy for a Brady violation is a new
trial, which appellant is receiving in this case.
Green, 2011 Ark. 92, at 11, 380 S.W.3d at 375.
Prosecutorial misconduct, even intentional
and reversible misconduct, does not preclude
retrial of the case. Id. To invoke the doublejeopardy bar, a defendant must show that the
misconduct was motivated not by a desire to

7
obtain a conviction but by a desire to provoke
the defendant into moving for a mistrial.
[emphasis supplied by Shock] Id. (quoting
State v. Williams, 268 Kan. 1, 988 P.2d 722,
728 (1999)). Appellant has failed to make that
showing here.
Since the Arkansas Supreme Court denied the
petition for review without a written opinion, this Court
looks through to the Court of Appeals’s decision. Wilson
v Sellers, 138 S.Ct. 1188 (2018).
The Court of Appeals’s conclusion that “intentional
and reversible misconduct” does not invoke the double
jeopardy bar is too crabbed a reading of Oregon v.
Kennedy and evinces a too restrictive a definition of
“goad.” This Court should grant certiorari to clarify the
standard.
The discovery violations infesting this case are so
flagrant and numerous that they can only be described
as intentional: The failure despite repeated requests
to disclose statements of the accuser corroborating the
defense; the failure to provide medical records which
clearly were in the possession of the prosecutor and not
handed over; and the failure of the prosecutor to disclose
her ties to the accuser and her mother.
The Arkansas Court of Appeals failed to take into
account the real-world purposes and ramifications of
intentional discovery violations. “If the suppression of
evidence results in constitutional error, it is because of
the character of the evidence, not the character of the
prosecutor.” United States v. Agurs, 427 U.S. 97, 110, 96

8
S.Ct. 2392, 2401 (1976). Nonetheless, intentional discovery
violations are motivated by the illicit desire to obtain a
conviction at all costs. When defense counsel is either
lucky enough, alert enough or skilled enough to smoke
out the violations during the trial itself, the defense is
obviously “goaded” or provoked into seeking the mistrial.
The subtext of Arkansas’s narrow reading of Kennedy is
that the prosecution pays no penalty for its intentional
misconduct.
Moreover, this conflicts with the doctrine permitting
dismissal with prejudice for intentional discovery
violations. In United States v. Bundy, 968 F.3d 1019 (9th
Cir. 2020), the Court wrote:
Days into the Bundys’ trial, the government
began disclosing information in its possession
that, under Brady v. Maryland, 373 U.S. 83, 83
S.Ct. 1194, 10 L.Ed.2d 215 (1963), was arguably
useful to the defense and should have been
produced to the defendants well before trial. As
additional documents came forth, the district
court held a series of hearings, eventually
deciding that the trial could not go forward and
that the indictments must be dismissed with
prejudice. Under Brady, “[t]he prosecution is
trusted to turn over evidence to the defense
because its interest ‘is not that it shall win a
case, but that justice shall be done.’ ” Amado
v. Gonzalez, 758 F.3d 1119, 1133–34 (9th Cir.
2014) (quoting Strickler v. Greene, 527 U.S. 263,
281, 119 S.Ct. 1936, 144 L.Ed.2d 286 (1999)). A
district court is imbued with discretion in the
supervision of proceedings before it and may

9
dismiss an action when, in its judgment, “the
defendant suffers substantial prejudice and
where no lesser remedial action is available.”
United States v. Chapman, 524 F.3d 1073, 1087
(9th Cir. 2008) (citations and quotation marks
omitted). Finding no abuse of discretion, we
affirm the judgment of the district court.
This case presents the opportunity to clarify what this
Court meant in Kennedy. The Court should make clear
that the double jeopardy bar to retrial can be invoked for
pretrial misbehavior discovered during the trial, and not
just trial misbehavior.
CONCLUSION
This Court should grant certiorari, and upon plenary
consideration should hold that discovery and Brady
violations constitute “goading” within the meaning of the
double jeopardy clause and Oregon v. Kennedy.
Respectfully submitted,
Jeffrey M. Rosenzweig
Counsel of Record
300 Spring Street, Suite 310
Little Rock, AR 72201
(501) 372-5247
jrosenzweig@att.net
Attorney for Petitioner

APPENDIX

1a
Appendixdenying
A
Appendix A — order
review
of the arkansas supreme court,
dated june 18, 2020
OFFICE OF THE CLERK
ARKANSAS SUPREME COURT
625 MARSHALL STREET
LITTLE ROCK, AR 72201
JUNE 18, 2020
RE:

SUPREME COURT CASE NO. CR-19-532
MICHAEL SHOCK V. STATE OF ARKANSAS

THE ARKANSAS SUPREME COURT ISSUED
THE FOLLOWING ORDER TODAY IN THE ABOVE
STYLED CASE:
“APPELLANT’S PETITION FOR REVIEW IS
DENIED. HART, J., WOULD GRANT. KEMP, C.J.,
NOT PARTICIPATING.”
SINCERELY,
/s/					
STACEY PECTOL, CLERK

2a
Appendix
B DENYING
APPENDIX B
— ORDER
REHEARING OF THE ARKANSAS COURT
OF APPEALS, DATED APRIL 15, 2020
OFFICE OF THE CLERK
ARKANSAS COURT OF APPEALS
625 MARSHALL STREET
LITTLE ROCK, AR 72201
APRIL 15, 2020
RE: COURT OF APPEALS CASE NO. CR-19-532
MICHAEL SHOCK V. STATE OF ARKANSAS
THE ARKANSAS COURT OF APPEALS ISSUED
THE FOLLOWING ORDER TODAY IN THE ABOVE
STYLED CASE:
“APPELLANT’S PETITION FOR REHEARING
IS DENIED. MURPHY, J., NOT PARTICIPATING.”
SINCERELY,
/s/				
STACEY PECTOL, CLERK

3a
AppendixOF
C THE ARKANSAS
APPENDIX C — OPINION
COURT OF APPEALS, DIVISION THREE, DATED
MARCH 11, 2020
ARKANSAS COURT OF APPEALS
DIVISION THREE
No. CR-19-532
MICHAEL SHOCK,
Appellant,
v.
STATE OF ARKANSAS,
Appellee.
March 11, 2020, Opinion Delivered
APPEAL FROM THE CLEBURNE COUNTY
CIRCUIT COURT. NO. 12CR-17-166.
HONORABLE TIM WEAVER, JUDGE.
Judges: RITA W. GRUBER, Chief Judge. VIRDEN and
KLAPPENBACH, JJ., agree.
RITA W. GRUBER, Chief Judge
Michael Shock appeals the circuit court’s denial of
his motion to dismiss the charges against him on doublejeopardy grounds based on prosecutorial misconduct of

4a
Appendix C
withholding pretrial discovery information. He contends
on appeal that the State’s repeated discovery violations
during his first trial were intended to provoke him to
move for a mistrial and thus that double jeopardy barred
a second trial under the standard set by the United
States Supreme Court under the federal constitution in
Oregon v. Kennedy, 456 U.S. 667, 102 S. Ct. 2083, 72 L.
Ed. 2d 416 (1982). In the alternative, he asks this court to
expand double-jeopardy protections under the Arkansas
Constitution to include prosecutorial misconduct beyond
the intention to provoke the defendant into moving for
a mistrial. We affirm the denial of appellant’s motion to
dismiss.
On October 17, 2017, appellant was charged with one
count of rape of his granddaughter, LS, who was five years
old at the time. The victim first reported the allegations to
her mother, Samantha Shock. Several days later, LS was
interviewed at the child-safety center in Searcy, where a
SANE1 nurse also performed a physical exam, tested for
sexually transmitted diseases, and checked for evidence
of sexual abuse. The medical summary indicated the
absence of any physical findings of sexual abuse, and the
lab report was negative for sexually transmitted diseases.
After receiving the State’s file in response to his broad
discovery motion, appellant filed several pretrial motions
requesting additional information, including a bill of
particulars contending that the file the State had provided
was insufficient to apprise him of the time, place, manner,
and means of the alleged offense. His motions were denied.
1. Sexual Abuse Nurse Examiner

5a
Appendix C
The trial began on December 5, 2018, and the State
called Ms. Shock as its first witness. During her testimony,
appellant moved for a mistrial, arguing that Ms. Shock
was testifying about new information that “[appellant] and
LS were in her room by themselves.” He argued that this
information had not been disclosed despite his request
for a bill of particulars. The court denied his motion.
Ms. Shock’s testimony continued, and she described the
medical exam performed on LS at the child-safety center.
The State concluded its direct examination of Ms. Shock,
and the court recessed for the day.
At the beginning of the second day of trial before he
began his cross-examination of Ms. Shock, defense counsel
moved for a mistrial, alleging he had been provided no
evidence during discovery that a medical examination
or testing had taken place. Defense counsel proffered
two pages he alleged the State had provided to him from
the child-safety center, which did not include results of
a sexual-assault physical examination or suggest that
LS had been tested for sexually transmitted diseases.
Appellant argued that the noted absence of physical
findings of sexual abuse and the negative lab results for
sexually transmitted diseases was exculpatory and was
required to have been disclosed by the State. The State
responded that they had provided the name of the SANE
nurse as a witness and that they had given appellant the
relevant documents regarding her examination. The court
denied the motion for mistrial, finding that the State had
provided the information.

6a
Appendix C
Defense counsel continued his cross-examination
of Ms. Shock and again moved for a mistrial based on
the State’s failure to disclose that the prosecutor had
represented Ms. Shock years earlier in a civil action when
the prosecutor was in private practice. The circuit court
denied the motion and continued with the proceedings.
During a subsequent break in Ms. Shock’s testimony,
the prosecutor told the court that she had asked the
SANE nurse during the break to confirm the number of
pages contained in the medical records. The prosecutor
discovered that there were numerous pages, including lab
results, that had not been provided to defense counsel.
Appellant moved for a mistrial, which the State conceded
had merit, and the court granted it.
On March 20, 2019, prior to appellant’s second
trial, he filed a motion to dismiss on double-jeopardy
grounds under the federal and state constitutions,
arguing that the State’s failure to turn over inculpatory
and exculpatory information was a Brady 2 violation,
constituted prosecutorial misconduct, and was disclosed
during trial to provoke a mistrial and avoid an acquittal.
Therefore, he argued, under the United States Supreme
Court’s opinion in Kennedy, double jeopardy attached to
bar re-prosecution. The circuit court denied appellant’s
motion, specifically finding no bad faith on behalf of the
2. Brady v. Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed.
2d 215 (1963) (holding suppression by the prosecution of requested
evidence favorable to an accused violates due process when the
evidence is material to guilt or punishment, irrespective of the
good faith or bad faith of prosecution).

7a
Appendix C
State and no attempt by the prosecutor to “goad” appellant
into requesting a mistrial. This appeal is from that denial.
A double-jeopardy claim may be raised by interlocutory
appeal because if a defendant is illegally tried a second
time, the right is forfeited. Zawodniak v. State, 339 Ark.
66, 68, 3 S.W.3d 292, 293 (1999). We review a circuit
court’s denial of a motion to dismiss on double-jeopardy
grounds de novo. Winkle v. State, 366 Ark. 318, 235
S.W.3d 482 (2006). When the analysis presents itself
as a mixed question of law and fact, we give the factual
determinations made by the circuit court due deference
and will not reverse them unless clearly erroneous. Id. at
320, 235 S.W.3d at 483. However, “the ultimate decision
by the circuit court that the defendant’s protection against
double jeopardy was not violated is reviewed de novo, with
no deference given to the circuit court’s determination.”
Green v. State, 2011 Ark. 92, at 4, 380 S.W.3d 368, 371.
The Double Jeopardy Clause of the Fifth Amendment
protects a criminal defendant from repeated prosecutions
for the same offense. United States v. Dinitz, 424 U.S. 600,
606, 96 S. Ct. 1075, 47 L. Ed. 2d 267 (1976). The Double
Jeopardy Clause, however, does not offer the defendant a
guarantee that the State will vindicate its societal interest
in the enforcement of the criminal laws in one proceeding.
Kennedy, 456 U.S. at 672. It protects criminal defendants
from (1) a second prosecution for the same offense after
acquittal, (2) a second prosecution for the same offense
after conviction, and (3) multiple punishments for the
same offense. Wilcox v. State, 342 Ark. 388, 39 S.W.3d 434
(2000) (citing North Carolina v. Pearce, 395 U.S. 711, 89 S.

8a
Appendix C
Ct. 2072, 23 L. Ed. 2d 656 (1969)). There is also a narrow
exception to the rule that the Double Jeopardy Clause
will not bar retrial when a defendant moves for a mistrial
“where the governmental conduct in question is intended
to ‘goad’ a defendant into moving for a mistrial.” Kennedy,
456 U.S. at 676. The examination of the prosecutor’s
intent calls for the circuit court to make a finding of fact
by inferring the existence or nonexistence of intent from
objective facts and circumstances. McClendon v. State,
2017 Ark. App. 295, at 6, 523 S.W.3d 374, 377; Jackson v.
State, 322 Ark. 710, 911 S.W.2d 578 (1995).
Appellant first argues that the circuit court erred
in denying his motion to dismiss because the State’s
repeated discovery and Brady violations were intended
to provoke a mistrial. He points to his repeated attempts
to obtain a mistrial for the State’s failure to disclose
before trial (1) the existence of a sexual-assault medical
exam of the victim; (2) that the victim and appellant had
been alone together; and (3) the prosecutor’s previous
representation of Ms. Shock in a civil matter. The circuit
court reviewed the issues and found that the prosecutor
had not intentionally attempted to “goad” appellant into
requesting a mistrial.
We cannot say that the circuit court’s finding is clearly
erroneous, and on de novo review, we affirm its denial of
appellant’s motion to dismiss. Appellant moved multiple
times for mistrial before it was ultimately granted by
the court. The State responded to each motion, refuting
appellant’s arguments and denying that a mistrial was
warranted, suggesting that the State specifically did not

9a
Appendix C
want the case to end in a mistrial. It was not until the
prosecutor questioned the SANE nurse during a break in
Ms. Shock’s testimony that the State discovered multiple
pages from the medical examination had not been provided
to appellant during discovery. At appellant’s renewal of his
motion for mistrial, the prosecutor agreed that it should be
granted although it made her “physically ill.” We cannot
say the circuit court’s finding that the prosecutor did not
intentionally goad appellant into moving for a mistrial is
clearly erroneous.
Further, although the State does not concede that
the failure to provide the evidence amounted to a Brady
violation, 3 our supreme court has held that the law is well
settled that the remedy for a Brady violation is a new trial,
which appellant is receiving in this case. Green, 2011 Ark.
92, at 11, 380 S.W.3d at 375. Prosecutorial misconduct,
even intentional and reversible misconduct, does not
preclude retrial of the case. Id. To invoke the doublejeopardy bar, a defendant must show that the misconduct
was motivated not by a desire to obtain a conviction but
by a desire to provoke the defendant into moving for a
mistrial. Id. (quoting State v. Williams, 268 Kan. 1, 988
P.2d 722, 728 (Kan. 1999)). Appellant has failed to make
that showing here.
3. There are three elements of a Brady violation: (1) the
evidence at issue must be favorable to the accused, either because
it is exculpatory or because it is impeaching; (2) the evidence
must have been suppressed by the State, either willfully or
inadvertently; and (3) prejudice must have ensued. Williams v.
State, 2017 Ark. 313, at 3, 530 S.W.3d 844, 846. We express no
opinion whether the violations in this case met this standard.

10a
Appendix C
Finally, appellant asks us to consider expanding
double-jeopardy considerations under the Arkansas
Constitution to include a more objective, broader standard
involving prosecutorial-misconduct allegations. Our
supreme court has declined to extend the holding of
Kennedy beyond those instances in which the prosecution
has intentionally provoked a mistrial. Green, supra;
Jackson, supra. We must follow the precedent set by the
supreme court and are powerless to overrule its decisions.
Rice v. Ragsdale, 104 Ark. App. 364, 368, 292 S.W.3d 856,
860 (2009).
Accordingly, we affirm the circuit court’s decision
denying appellant’s motion to dismiss.
Affirmed.
Virden and K lappenbach, JJ., agree.

11a
AppendixOF
D TRANSCRIPT OF
APPENDIX D — EXCERPT
THE CIRCUIT COURT OF CLEBURNE COUNTY,
ARKANSAS, FOURTH DIVISION, DATED
APRIL 16, 2019
[998]IN THE CIRCUIT COURT OF
CLEBURNE COUNTY, ARKANSAS
FOURTH DIVISION
NO. CR-2017-166
STATE OF ARKANSAS,
Plaintiff,
vs.
MICHAEL C. SHOCK,
Defendant.
PROCEEDINGS
BE IT REMEMBERED that on this 16th day of April,
2019, before the Honorable Tim Weaver, Judge within and
for the 16th Judicial District, of which Cleburne County is
a part, the above-styled cause was heard before the Court.
The follow ing is a true, correct and complete
transcription of the record made on the above date.
BY THE COURT: State versus Michael Shock,
CR-2017-166. We’ve got some hearings for today. How long
do y’all anticipate those hearings will take?

12a
Appendix D
BY MR. SMITH: Judge, Mr. Benca’s got a pending
motion to dismiss. The State’s got a pending motion to
quash subpoena for Ms. Meyer. Probably 30 to 45 minutes,
I’d say.
***
[1012]to spend a bunch of money. The State has also spent
a bunch of money and resources in preparing for trial.
And so, we certainly fought this tooth and nail. And I
don’t think there’s any way you can find that we provoked
them into a mistrial.
THE RULING
BY THE COURT:
Based on the record, I’m going to agree. I find that
back when Ms. Meyer represented to this Court that she
was surprised and there’s nothing before this Court that
would indicate that Ms. Meyer orchestrated this to goad
the defendant into asking for a mistrial. So, I think - - I
have everything I would need to make a ruling. And I will
make the ruling that I do not need Ms. Meyer - - Judge
Meyer now, to make that - - those same statements on the
record. I’ve not been shown that there’s anything of over
and beyond what occurred back then that would have any
relevance to this case going forward.
BY MR. SMITH: Yes, sir.

13a
Appendix D
BY MR. BENCA: So, the motion to quash is denied?
Is that correct, Judge?
BY THE COURT: The motion to quash will be
granted.
BY MR. BENCA: Okay. I’m sorry. That’s what I
meant.
BY THE COURT: Correct.
BY MR. SMITH: Motion to quash is granted.
BY MR. BENCA: Granted.
***
[1016](THEREUPON, JOINT EXHIBIT 1 IS
MARKED AND ADMITTED INTO EVIDENCE)
(THEREUPON, JOINT EXHIBIT 2 IS MARKED
AND ADMITTED INTO EVIDENCE)
BY THE COURT: And I will be the one that the State
says is all they had, the two pages plus an error page. And
the other one is the one that the defendant - BY COURT REPORTER: So, which is which?
BY MR. BENCA: That we agree was faxed to the
sheriff’s office on 8/15 of 2018.

14a
Appendix D
BY MR. SMITH: This is 1 and this is 2.
BY COURT REPORTER: This is 1 and this is 2. Okay.
BY THE COURT: Based on the record before this
Court, I do not find any bad faith or an attempt by the
State to goad the defendant into requesting a mistrial.
And I’m going to deny the motion to dismiss.
BY MR. BENCA: Thank you, You Honor.
BY THE COURT: I find that jeopardy never attached.
So - BY MR. BENCA: So, what I will do is I’ll keep the
Court in contact with regard to the notice of appeal. And
then I’ll get the State involved.
BY THE COURT: And you understand because the
age of this child, I’m under some pressure to make sure
that it gets sent forward. And you’re representing to this
Court that you
****

